                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                       OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

Case Number:               ADYOSDD~~
                                                                                  I          Page 1 of 2



                We were informed of allegations that a former faculty member' of a New England
         universitg had not received full payment for worked perfoAed under an NSF award.' The
         former faculty member was unable to provide pay stubs or other information for us to confirm
         how much salary she had received. Shortly thereafter, we learned that a student4claimed that he
         was not reimbursed by the NSF award for improvements he had been employed to make in a web
         site.

                We contacted the PI, who informed us that neither former faculty member nor the student
         had never worked on the NSF award, but had worked for a nonprofit educational organization.
         The PI exblained that the NSF grant involved collaboration between educators at several
         universities. In order to avoid misunderstandings the collaborators engaged the nonprofit
         educational organization5 as the grant's "bookkeeper."

                 At the PI'S recommendation, we contacted the director of the educational organization for
         further information. The ~ i r e c t o of
                                                r ~the nonprofit educational organization confirmed that his
         organization served as the "bookkeeper" for the NSF award. Separately, the nonprofit receives
         state and other foundation or nonprofit funds to conduct its own educational projects. He told us
         that his organization had employed the former faculty member and that employment was through
         discretionary funds and not derived from any federal award. The Director also stated that the
         student had never been employed by or been contracted to do work for the nonprofit educational
                                                                                               i
         organization.
                                                                                                               '
                According to the Director, the funder of the web work required that the student hired to
         perform it be a university student. At the time the student allegedly conducted the work he was
         attending high school. The Director explained that the former faculty member might have
         engaged the student, who is also her son, to conduct some work for her, but if that were so, it was
         without the knowledge permission, or consent of the nonprofit educational organization.

                     Because neither the former faculty member nor the student worked for the NSF award, we




ISF OIG Form 2 ( 1 1/02)
                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                       CLOSEOUT MEMORANDUM

Case Number: A04050034                                                    11          Page 2 of 2



    could find no support for the allegations. In the absence of NSF support, any allegation that
    these individuals were not paid for work at the nonprofit educational organization would not be
    within NSF-OIG's jurisdiction.

             Subsequently, we learned that the faculty member's idea for a talent search may have
    been used without acknowledgement in the NSF proposal. We have been unable to find support
    for this allegation, and not received information fiom the faculty member to support the
    allegation. In the absence of evidence, this allegation will not be pursued. If OIG receives
    information supporting this allegation, this case will be reopened.

           Accordingly, this case. is closed.
